No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
MIGUEL ANGEL CANO
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this
29th day of January, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7326
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
January 29, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 29, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

SERVICE LIST - USA v. MIGUEL ANGEL CANO

HARINI P. RAGHUPATHI
FEDERAL DEFENDERS OF SAN DIEGO, INC.
225 BROADWAY
SUTIE 900
SAN DIEGO, CA 92101-5030
619-234-8467
HARINI_RAGHUPATHI@FD.ORG

